 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




SOUNDVIEW HEALTH CARE NETWORK
 DID NOT MEET SELECT FINANCIAL
  PERFORMANCE MEASURES AND
 CLAIMED UNALLOWABLE FEDERAL
      GRANT EXPENDITURES


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                     September 2012
                                                      A-02-11-02004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Soundview Health Care Network (Soundview) is a nonprofit organization that operates a
network of five health centers throughout The Bronx, New York. Soundview provides medical,
dental, and mental health services and is funded primarily by patient service revenues and
Federal grants.

During calendar years (CY) 2008 through 2010, HRSA awarded Soundview grant funding
totaling approximately $6.5 million. Of this amount, approximately $5.2 million in section 330
grant funding was awarded to supplement Soundview’s health center operations. The remaining
$1.3 million was awarded in CY 2009 under the Recovery Act and included approximately
$1 million under a CIP grant to construct a new building and approximately $300,000 under an
IDS grant to increase access and reduce barriers to health care within Soundview’s service area.

In an era of increased focus on Federal expenditures and their results, it is critical that Federal
agencies ensure that the organizations they fund are positioned to continue meeting program
objectives and providing services. This is even more critical for agencies that fund programs
intended to provide services to medically underserved and vulnerable populations. HRSA uses
guidance detailed in its Bureau of Primary Health Care Policy Information Notice 2002-18
(PIN 2002-18), dated April 30, 2002, in part to evaluate the recovery of Community Health
Centers operating under a financial recovery plan through the use of audited financial statements
to ensure the centers’ financial stability and viability.




                                                 i
In addition to PIN 2002-18, which HRSA regularly uses during its internal reviews, HRSA
published “Practice Management Benchmarks” (benchmark guidance), dated March 27, 2002,
which provides additional financial performance measures to evaluate grantee performance.

Soundview must also comply with Federal cost principles in 2 CFR part 230, Cost Principles for
Non-Profit Organizations, the requirements for health centers in 42 U.S.C. § 254(b), and the
financial management system requirements in 45 CFR § 74.21.

OBJECTIVES

Our objectives were to determine (1) whether Soundview met select HRSA financial
performance measures and (2) whether Soundview’s grant expenditures were allowable.

SUMMARY OF FINDINGS

Soundview did not meet select HRSA financial performance measures. In addition, Soundview
claimed Federal grant expenditures totaling $113,603 that were unallowable. Soundview
claimed these unallowable costs because of deficiencies in its internal controls. We could not
determine the allowability of an additional $5,211,598 because Soundview did not maintain
after-the-fact certifications of activity for employees whose salaries were charged to the
section 330 and IDS grants and because section 330 grant funds were not accounted for separate
from other operational funds.

RECOMMENDATIONS

We recommend that HRSA:

   •   impose special award conditions to address shortcomings in Soundview’s financial
       performance measures, including days of expenses covered by cash, current and cash
       ratios, working capital, accounts receivable collections, and revenue deficiency;

   •   ensure that Soundview refunds $98,594 to the Federal Government ($21,638 related to
       the IDS grant and $76,956 related to the CIP grant);

   •   either require Soundview to refund $5,211,598 to the Federal Government ($5,055,333
       related to the section 330 grant and $156,265 related to the IDS grant) or work with
       Soundview to determine whether any of the costs that it claimed against these grants were
       allowable;

   •   impose special award conditions to ensure that Soundview’s financial system provides
       accurate, current, and complete disclosure of financial results, identifies the source and
       application of funds for HHS-sponsored activities, and accounts for section 330 grant
       funds separately from all other funds;

   •   ensure that Soundview develops policies and procedures for determining the
       reasonableness, allocability, and allowability of expenditures; and


                                                 ii
   •   educate Soundview officials on Federal requirements for after-the-fact certifications and
       the proper period to charge costs.

SOUNDVIEW HEALTH CARE NETWORK COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Soundview stated that it disagreed with most of our
findings and recommendations. Soundview also stated that delayed Medicaid payments and two
unpaid grants impacted its financial performance measures and that it was not aware of
requirements to maintain after-the-fact certifications and to separately account for Federal grant
expenditures.

After reviewing Soundview’s comments, we maintain that our findings and recommendations are
valid. Soundview’s comments appear as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA generally agreed with our findings and
recommendations. HRSA agreed with our recommendation to ensure that Soundview refund
$98,594 and will work with the Program Support Center on appropriate debt collection actions.
Regarding the finding and recommendation that $5,211,598 either be refunded or that HRSA
work with Soundview to determine what, if any, of these costs were allowable, HRSA concurred
that we had applied the appropriate Federal cost principles and administrative requirements.
HRSA did not commit to a course of action regarding these funds. It did state that it would issue
clarifying guidance to section 330 grantees to affirm these Federal requirements and to notify the
grantees that they must separately account for Federal and non-Federal grant budgets and
expenditures. HRSA also stated that it did not plan to take action on our remaining
recommendations because (1) Soundview’s section 330 grant expired in January 2012, and a new
organization was awarded a section 330 grant to serve Soundview’s area/population and (2)
other Soundview funding awards were placed on restricted drawdown, requiring approval by
grants management officials prior to disbursement.

After reviewing HRSA’s comments, we maintain that our findings and recommendations are
valid. We continue to recommend that HRSA either require Soundview to refund the $5,211,598
in section 330 and IDS grant funds or work with Soundview to determine whether any of the
costs claimed against these grant were allowable. In addition, although Soundview’s section 330
grant has expired and been fully drawn down, its IDS and CIP grants are still active. Therefore,
HRSA should still address shortcomings in Soundview’s financial performance measures and
ensure that Soundview develops policies and procedures for determining the reasonableness,
allocability, and allowability of expenditures until these grants have been closed.

HRSA’s comments are included in their entirety as Appendix B (May 3, 2012) and Appendix C
(August 9, 2012).




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Health Center Program .......................................................................................... 1
              American Recovery and Reinvestment Act of 2009.............................................. 1
              Soundview Health Care Network .......................................................................... 1
              Health Resources and Services Administration
               Financial Performance Measures ........................................................................ 2
              Federal Requirements for Grantees ....................................................................... 2
              Special Award Conditions ..................................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................... 3
               Objectives .............................................................................................................. 3
               Scope ...................................................................................................................... 3
               Methodology .......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................. 4

          PERFORMANCE RELATIVE TO FINANCIAL PERFORMANCE MEASURES........ 4
               Days of Expenses Covered by Cash ...................................................................... 4
               Current and Cash Ratios ........................................................................................ 5
               Working Capital ..................................................................................................... 5
               Accounts Receivable Collections .......................................................................... 5
               Earnings Trends ..................................................................................................... 6

          UNALLOWABLE EXPENDITURES CLAIMED
           FOR FEDERAL REIMBURSEMENT .......................................................................... 6
               Federal Requirements ........................................................................................... 6
               Expenditures for the Section 330 Grant ................................................................. 6
               Expenditures for the Increased Demand for Services Grant ................................. 7
               Expenditures for the Capital Improvement Program Grant .................................. 8

          RECOMMENDATIONS ................................................................................................... 9

          SOUNDVIEW HEALTH CARE NETWORK COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 9
               Performance Relative to Financial Performance Measures .................................. 10
               Unallowable Expenditures Claimed for Federal Reimbursement ........................ 11
               Expenditures for the Increased Demand for Services Grant ................................. 12
               Expenditures for the Capital Improvement Program ............................................ 12




                                                                     iv
    HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
     AND OFFICE OF INSPECTOR GENERAL RESPONSE........................................... 13

APPENDIXES

    A: SOUNDVIEW HEALTH CARE NETWORK COMMENTS

    B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
       DATED MAY 3, 2012

    C: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
       DATED AUGUST 9, 2012




                                           v
                                          INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Soundview Health Care Network

Soundview Health Care Network (Soundview) is a nonprofit organization that operates a
network of five health centers throughout The Bronx, New York. 1 Soundview provides medical,
dental, and mental health services and is funded primarily by patient service revenues and
Federal grants.

During calendar years (CY) 2008 through 2010, HRSA awarded Soundview grant funding
totaling approximately $6.5 million. Specifically:

    •   During CYs 2008 through 2010, HRSA awarded Soundview approximately $1.7 million
        each year in section 330 grant funds, for a total of approximately $5.2 million, to
        supplement Soundview’s health center operations.

    •   During CY 2009, HRSA awarded Soundview approximately $1.3 million in Recovery
        Act funds. Approximately $1 million of this amount was awarded under a CIP grant to
1
 Soundview’s corporate name is Comprehensive Community Development Corp., though it does business as
Soundview Health Care Network.


                                                    1
        construct a new building, and approximately $300,000 was awarded under an IDS grant
        to increase the number of patients provided health care within Soundview’s service area. 2

Health Resources and Services Administration Financial Performance Measures

In an era of increased focus on Federal expenditures and their results, it is critical that Federal
agencies ensure that the organizations they fund are positioned to continue meeting program
objectives and providing services. This is even more critical for agencies that fund programs
intended to provide services to medically underserved and vulnerable populations. HRSA uses
guidance detailed in its Bureau of Primary Health Care Policy Information Notice 2002-18
(PIN 2002-18), dated April 30, 2002, in part to evaluate the recovery of Community Health
Centers operating under a financial recovery plan through the use of audited financial statements
to ensure the centers’ financial stability and viability.

In addition to PIN 2002-18, which HRSA regularly uses during its internal reviews, HRSA
published “Practice Management Benchmarks” (benchmark guidance), dated March 27, 2002,
which provides additional financial performance measures to evaluate grantee performance.

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Soundview must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles require that grant expenditures submitted for Federal reimbursement be
reasonable, allocable, and otherwise allowable. The HHS awarding agency may include
additional requirements that are considered necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
reasonableness, allocability, and allowability of expenditures in accordance with applicable Federal
cost principles and the terms and conditions of the award (45 CFR § 74.21(b)(6)).

Special Award Conditions

Pursuant to 45 CFR § 74.14, HRSA may impose additional requirements if a grant recipient has
a history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible. Effective May 2010, HRSA imposed special award

2
 The grant budget periods covered by our audit were February 1, 2008, through January 31, 2011 (includes three
budget periods), for the section 330 grant funds; June 29, 2009, through June 28, 2011, for the CIP funds; and
March 27, 2009, through March 26, 2011, for the IDS grant funds.


                                                        2
conditions on Soundview by requiring Soundview to obtain HRSA approval prior to
withdrawing grant funds. 3

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine (1) whether Soundview met select HRSA financial
performance measures and (2) whether Soundview’s grant expenditures were allowable.

Scope

We analyzed Soundview’s financial performance during fiscal years 2008 through 2010. Our
analyses included a review of select HRSA financial performance measures, including a review
of Soundview’s days of expenses covered by cash, current and cash ratios, working capital,
accounts receivable collections, and earnings trends. We also reviewed costs totaling $5,339,571
that Soundview charged to its section 330, CIP, and IDS grants for the period February 1, 2008,
through December 30, 2010. Lastly, we reviewed Soundview’s financial systems. Because we
identified material misstatements in Soundview’s audited financial statements, we did not fully
rely on those statements.

We performed our fieldwork at Soundview’s administrative office in The Bronx, New York,
during January and February 2011.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed Soundview’s HRSA grant applications, notices of grant award, and supporting
        documentation;

    •   interviewed Soundview personnel to gain an understanding of Soundview’s accounting
        system, internal controls over Federal expenditures, and IDS and CIP grant activities;

    •   reviewed Soundview’s procedures on accounting for funds, documenting transactions,
        making estimates, preparing financial reports, withdrawing Federal funds, and payroll
        processing;

    •   reviewed Soundview’s independent auditor’s reports and related financial statements for
        fiscal years 2008, 2009, and 2010;



3
  Specifically, HRSA placed Soundview on “restricted reimbursement drawdown status,” which required Soundview
to submit supporting documentation and obtain prior approval from HRSA for every drawdown request.


                                                     3
    •    examined selected accounts in Soundview’s audited financial statements to determine the
         reliability of the balances and made adjustments as necessary;

    •    analyzed Soundview’s adjusted financial line items and amounts; and

    •    reviewed expenditures claimed on Soundview’s section 330, IDS, and CIP grants for
         reasonableness, allowability, and allocability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

Soundview did not meet select HRSA financial performance measures. In addition, Soundview
claimed Federal grant expenditures totaling $113,603 that were unallowable. 4 Soundview
claimed these unallowable costs because of deficiencies in its internal controls. We could not
determine the allowability of an additional $5,211,598 5 because Soundview did not maintain
after-the-fact certifications of activity for employees whose salaries were charged to the
section 330 and IDS grants and because section 330 grant funds were not accounted for separate
from other operational funds.

PERFORMANCE RELATIVE TO FINANCIAL PERFORMANCE MEASURES

To assess Soundview’s performance relative to HRSA’s financial performance measures, we
analyzed Soundview’s (1) days of expenses covered by cash, (2) current and cash ratios,
(3) working capital, (4) accounts receivable collections, and (5) earnings trends.

Days of Expenses Covered by Cash

Measuring days of expenses covered by cash determines whether an organization has enough
cash on hand to cover its operating expenses. This measure is calculated by dividing the yearend
cash balance by the average daily expenses. According to HRSA’s benchmark guidance,
recipients should have 60 to 70 days of operating cash on hand. For the 3 years that we
analyzed, Soundview’s cash balances were significantly lower than the recommended 60-day




4
  This amount consists of $21,638 in printing and publications, postage, and transportation costs that Soundview
claimed against the IDS grant and $91,965 in construction costs that it charged against its CIP grant. As explained
in the discussion of the unallowable construction costs that follows, only $76,956 of the $91,965 remains due the
Federal Government.
5
 This amount consists of $5,055,333 that Soundview charged against its section 330 grant and $156,265 that it
charged against its IDS grant.


                                                         4
minimum.6 During 2008, 2009, and 2010, Soundview’s cash balances covered 2 days, 1 day,
and less than 1 day, respectively.

Current and Cash Ratios

The current ratio measures an organization’s ability to pay its short-term liabilities (e.g.,
debt) with its short-term assets (e.g., cash, inventory, receivables). The higher the current ratio,
the more likely the organization is able to pay its obligations. A ratio of less than 1 suggests that
the organization may be unable to pay off its obligations. The current ratio is calculated by
dividing the organization’s current assets by its current liabilities. Pursuant to PIN 2002-18,
HRSA recommends that grantees maintain a current ratio greater than 1.5. Soundview’s current
ratio declined from 1.3 in 2008 to 1.2 in 2009 and 0.9 in 2010.

In addition, even if an organization’s current ratio is greater than 1.5, it may not be able to pay
off its current obligations if the majority of its current assets consists of accounts receivable,
especially if the accounts receivable are not collected in a timely manner. The cash ratio is
related to the current ratio and is commonly used to measure an organization’s liquidity. It can
therefore determine whether, and how quickly, the organization can repay its short-term debt.
The cash ratio is calculated by dividing an organization’s cash balance by its current liabilities.
For 2008, 2009, and 2010, Soundview had declining cash ratios of 0.023, 0.013, and 0.009,
respectively, indicating that Soundview did not have enough cash on hand to pay its short-term
liabilities.

Working Capital

Working capital is a common measure of an organization’s liquidity, efficiency, and overall
health. Working capital is calculated by subtracting current liabilities from current assets.
Pursuant to PIN 2002-18, HRSA recommends that grantees maintain a positive working capital
greater than 2 months of expenditures.

Soundview did not maintain a working capital greater than 2 months of expenditures. At the end
of 2008, Soundview’s working capital was $1.1 million, with an average of $2.4 million of
expenditures over 2 months. At the end of 2009, its working capital was $783,000, with an
average of $2.4 million of expenditures over 2 months. At the end of 2010, its working capital
fell to about negative $276,000, with an average of $2.1 million of expenditures over 2 months.

Accounts Receivable Collections

The average accounts receivable collection period is the amount of time it takes an organization
to collect its accounts receivable balances. It is calculated by dividing an organization’s yearend
accounts receivable balance by its yearend revenue balance, multiplied by the number of days in
the year. According to HRSA’s benchmark guidance, recipients should collect their accounts


6
 Given that Federal regulations require that grantees minimize the amount of time between the drawdown of
Federal funds and the disbursement of those funds (45 CFR § 74.22), this particular performance measure should be
applied in situations where a grantee has large amounts of operational funds that are non-Federal grant funds.


                                                        5
receivable balances in 65 days or less to maintain a healthy cashflow. During 2008, 2009, and
2010, Soundview collected its accounts receivable in an average of 126 days, 111 days, and
99 days, respectively.

Earnings Trends

An earnings trend is a measure of economic performance and is determined by comparing
revenues to expenses (net earnings) over time. Pursuant to PIN 2002-18, HRSA recommends
that grantees maintain a positive earnings trend. A failure to break even indicates that an
organization may not be able to perform its core functions. Soundview’s annual net earnings
declined by $653,580 from 2008 through 2010. For 2008 and 2009, Soundview had net profits
of $382,810 and $6,851, respectively. For 2010, Soundview recorded a net loss of $270,770.

UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR part 230, Appendix A, § A.2,g, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m, for
salaries and wages to be allowable for Federal reimbursement, grantees must maintain personnel
activity reports reflecting the actual activity of each employee working on Federal awards.
These after-the-fact determinations of employee activity must be signed by the employee or a
supervisory official having firsthand knowledge of the employee’s activities, be prepared at least
monthly, coincide with one or more pay periods, and account for the total activity of the
employee.

Pursuant to the Notice of Grant Award for its CIP grant, Soundview could incur preaward costs
from February 17, 2009, until June 29, 2009, the effective date of the CIP award, with prior
approval from the HRSA Grants Management Officer.

Pursuant to 45 CFR § 74.28, a recipient may charge to the grant only allowable costs resulting
from obligations incurred during the funding period and any preaward costs authorized by the
Federal awarding agency pursuant to 45 CFR § 74.25(d)(1).

Expenditures for the Section 330 Grant

We could not determine the allowability of $5,055,333 in section 330 grant expenditures that
Soundview claimed from February 2008 through December 2010 because it did not adequately
document expenses. Specifically, Soundview did not maintain after-the-fact certifications of
actual activity for employees who worked on the grant. In addition, Soundview did not account
for its section 330 grant expenditures separate from other operational funds. 7 As a result, we


7
  Soundview separately tracked and accounted for its Recovery Act funds, as required. However, it failed to account
for section 330 grant funds separate from other operational funds, including expenditures related to Medicaid,
Medicare, and third-party reimbursements.



                                                        6
could not verify that section 330 grant funds were used for allowable expenditures. These
unallowable claims occurred because Soundview did not:

    •   have written procedures for determining the reasonableness, allowability, and allocability
        of expenditures in accordance with the provisions of the applicable Federal cost
        principles and the terms and conditions of the award (45 CFR § 74.21(b)(6)) or

    •   set up its accounting system according to 45 CFR § 74.21(b)(1) and (2), which requires
        systems to provide accurate, current, and complete disclosure of financial results and
        records that identify the source and application of funds for HHS-sponsored activities and
        account for section 330 grants separately (42 CFR § 51c.112(a)).

Soundview officials stated that they were unaware of the Federal accounting system requirement
and the requirement that section 330 grant expenditures needed to be documented. Furthermore,
they stated that they were unaware that Soundview was required to maintain after-the-fact
certifications of actual activity for employees who worked on Federal awards.

Expenditures for the Increased Demand for Services Grant

Soundview claimed unallowable IDS grant expenditures totaling $21,638 for printing and
publications, postage, and transportation that were not adequately documented or allocable to the
award. In addition, we could not determine the allowability of $156,265 in salary and fringe
benefit costs that Soundview charged to the IDS grant because it failed to adequately document
the expenditures.

Printing and Publications, Postage, and Transportation Costs

Contrary to 2 CFR part 230, Appendix A, § A.2.g., Soundview did not adequately document the
$21,638 charged to the IDS grant for printing and publications, postage, and transportation.
Specifically, Soundview did not maintain supporting documentation for these charges or
adequately document its methodology for allocating these organization-wide expenditures to the
grant. Therefore, the $21,638 claimed was not allowable for Federal reimbursement.

These unallowable claims occurred because Soundview did not have written procedures for
determining the reasonableness, allocability, and allowability of expenditures in accordance with
the provisions of the applicable Federal cost principles and the terms and conditions of the award
(45 CFR § 74.21(b)(6)) and did not have a cost allocation methodology in accordance with
2 CFR part 230, Appendix A, §§ A.4 and D.4. 8




8
  Pursuant to 2 CFR part 230, Appendix A, § A.4, a cost is allocable to a Federal award if it is either incurred
specifically for the award, benefits both the Federal award and other work and can be distributed in reasonable
proportion to the benefits received, or is necessary to the overall operation of the organization (if a direct
relationship to the Federal award cannot be shown). Lastly, pursuant to 2 CFR part 230, Appendix A, § D.4, joint
costs must be prorated using a base that accurately measures the benefits provided to each award. The base must be
established in accordance with reasonable criteria and be supported by current data.


                                                        7
According to Soundview officials, rather than track and maintain supporting documentation for
these individual IDS grant expenses, Soundview allocated a portion of the organization-wide
expenses to the grant. Soundview could not demonstrate that its allocation methodology and
allocation base were consistent with Federal requirements. In addition, Soundview could not
show that the costs were incurred specifically for the award, benefited both the Federal award
and other work, or were necessary to the overall operation of the organization.

Salary and Fringe Benefit Costs

Contrary to 2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m, Soundview did not adequately
document $156,265 in salary and fringe benefit costs that it charged to the IDS grant.
Specifically, Soundview did not maintain after-the-fact certifications of actual activity for
employees who worked on the grant. Therefore, we could not determine whether the $156,265
that Soundview claimed was allowable for Federal reimbursement.

This occurred because Soundview did not have written procedures for determining the
reasonableness, allowability, and allocability of expenditures in accordance with the provisions
of the applicable Federal cost principles and the terms and conditions of the award (45 CFR
§ 74.21(b)(6)). Soundview officials stated that they were unaware of the requirement to maintain
after-the-fact certifications of actual activity for employees who worked on Federal awards.

Expenditures for the Capital Improvement Program Grant

Soundview claimed unallowable CIP grant expenditures totaling $91,965. Specifically,
Soundview claimed $85,633 for costs incurred prior to the start of the grant period without
HRSA approval and $6,332 for other costs that it could not support with documentation.

During the period January through February 2010, Soundview drew down $102,460 from the
payment system for expenditures to construct a new building for its main health center. In
addition to Federal funding, Soundview anticipated receiving approximately $3 million in New
York State grant funds for the project and expected to complete the project on or before June 28,
2011, the end date of the CIP grant. Soundview canceled the project because the State funding
was not received.

In April 2010, HRSA requested that Soundview send supporting documentation for the $102,460
in drawdowns. HRSA subsequently determined that most of the drawdowns were used to pay
for expenditures incurred prior to the grant period, and Soundview agreed to repay the entire
$102,460 in drawdowns by June 28, 2011. As of the date of our report, Soundview had repaid
$15,009 to the Federal Government.

We determined that Soundview spent $10,495 of the drawdowns for architectural and consulting
services that were allowable, related to the project, and incurred during the grant period.
However, contrary to 45 CFR § 74.28, Soundview spent $85,633 for architectural and consulting
services and attorney fees incurred prior to the start of the grant period without receiving prior
approval from HRSA as required by 45 CFR § 74.25(d)(1) and the terms and conditions of the
CIP award. Contrary to 2 CFR part 230, Appendix A, § A.2.g, Soundview could not provide



                                                8
invoices or supporting documentation for the remaining $6,332. Therefore, $91,965 was not
allowable for Federal reimbursement. (Soundview has repaid $15,009 of this amount; therefore,
$76,956 remains due the Federal Government.)

These unallowable claims occurred because Soundview did not have written procedures for
determining the reasonableness, allocability, and allowability of expenditures in accordance with
the provisions of the applicable Federal cost principles and the terms and conditions of the award
(45 CFR § 74.21(b)(6)). Furthermore, Soundview officials stated that they were unaware that
costs incurred prior to the start of the grant period were unallowable for Federal reimbursement.

RECOMMENDATIONS

We recommend that HRSA:

   •   impose special award conditions to address shortcomings in Soundview’s financial
       performance measures, including days of expenses covered by cash, current and cash
       ratios, working capital, accounts receivable collections, and revenue deficiency;

   •   ensure that Soundview refunds $98,594 to the Federal Government ($21,638 related to
       the IDS grant and $76,956 related to the CIP grant);

   •   either require Soundview to refund $5,211,598 to the Federal Government ($5,055,333
       related to the section 330 grant and $156,265 related to the IDS grant) or work with
       Soundview to determine whether any of the costs that it claimed against these grants were
       allowable;

   •   impose special award conditions to ensure that Soundview’s financial system provides
       accurate, current, and complete disclosure of financial results, identifies the source and
       application of funds for HHS-sponsored activities, and accounts for section 330 grant
       funds separately from all other funds;

   •   ensure that Soundview develops policies and procedures for determining the
       reasonableness, allocability, and allowability of expenditures; and

   •   educate Soundview officials on Federal requirements for after-the-fact certifications and
       the proper period to charge costs.

SOUNDVIEW HEALTH CARE NETWORK COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Soundview stated that it disagreed with most of our
findings and recommendations. After reviewing Soundview’s comments, we maintain that our
findings and recommendations are valid. Soundview’s comments appear as Appendix A.




                                                 9
Performance Relative to Financial Performance Measures

Soundview Comments

Soundview stated that funds due from the New York State Medicaid program (Medicaid) had a
significant impact on its financial performance measures. Specifically, Soundview stated that
Medicaid owed it more than $744,000 for the period 2007 through 2010 and that it did not start
receiving these funds until May 2011. 9 Soundview stated that these unpaid amounts negatively
impacted its performance relative to HRSA’s benchmarks for days of expenses covered by cash,
current and cash ratios, and accounts receivable collections. Soundview also noted other
contributing factors related to its accounts receivable system, including staff resources and
shortages and limitations with its billing system. Moreover, Soundview contended that its
performance relative to HRSA’s benchmarks for days of expenses covered by cash and current
and cash ratio performance measures was misleading because the measures take into account
only a yearend cash balance.

Soundview also stated that, during our audit period, it “incurred urgently needed capital repair
expenses” that were to be covered by two grants—a HRSA CIP grant and a New York State
grant—that were awarded but never paid. 10 Soundview indicated that these grants impacted its
performance relative to HRSA’s benchmark for working capital.

Finally, regarding its performance relative to HRSA’s benchmark for earnings trends,
Soundview stated that it is not unusual for an organization to experience a deficit year, as
Soundview experienced in 2010. Soundview also stated that the two grants described above,
which “could potentially be in the millions,” were not recorded as income.

Office of Inspector General Response

Soundview did not dispute the results of our financial performance measure calculations.
Rather, Soundview provided explanations for why it did not meet HRSA’s benchmarks; mainly,
that delayed Medicaid payments and two unpaid grants impacted its financial performance
measures.

Regarding Soundview’s comments concerning delayed Medicaid payments, we note that, even if
these payments were made on time, it is doubtful that they would have materially changed the
results of our financial performance measure calculations because any funds that Soundview
received would presumably have been applied to Soundview’s significantly large accounts
payable balance. Further, the Medicaid payments would not have had a material impact on
Soundview’s current ratio, as this measure takes into consideration both cash and accounts
receivables balances.

Regarding Soundview’s comments concerning grant awards that it contends were never paid, we
note that Soundview did receive a HRSA CIP grant award; however, it is currently repaying

9
    Soundview stated that Medicaid still owes it more than $200,000 for 2010.
10
     Soundview stated that it has not been notified of the status of these two grants despite numerous inquiries.


                                                            10
those funds to HRSA because it claimed unallowable expenditures. We confirmed that
Soundview was awarded a State grant for approximately $3 million to purchase land and
construct a new building. However, even if the State had paid Soundview the grant funds, it
would not have improved Soundview’s financial performance measures because the funds were
to be related to building costs, not operating expenses.

Unallowable Expenditures Claimed for Federal Reimbursement

Soundview Comments

Soundview stated that our audit was the first time it was advised that after-the-fact certifications
were required for employees working on Federal grants and that section 330 grant expenditures
needed to be segregated from other operational funds. Specifically, Soundview stated that its
independent auditors, HRSA officials, and other auditing agencies never mentioned these
requirements. Soundview further stated that HRSA has never provided technical assistance on
after-the-fact certifications and that a HRSA fiscal consultant who reviewed Soundview’s
financial records during a site visit never mentioned the requirement. Finally, Soundview
questioned whether it was being held to the same standard as other health centers, several of
which, according to Soundview, stated that they were not aware of after-the-fact certification
requirements.

Office of Inspector General Response

Soundview did not dispute the criteria cited in our report or our findings concerning its failure to
maintain after-the-fact certifications and to separately account for section 330 grant expenditures.
Regardless of whether HRSA failed to provide guidance on these requirements, the terms and
conditions of Soundview’s section 330 grant award stipulate that grantees are required to be in
compliance with:

   •   the applicable cost principles, which include the requirements for after-the-fact
       determinations of employee activity (2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m)
       and

   •   the administrative requirements, which include the requirements for grantees to provide
       accurate, current, and complete disclosure of financial results and records that identify the
       source and application of funds for HHS-sponsored activities (i.e. expenditures for
       section 330 grant funds should be segregated and accounted for separately from other
       operational funds) (45 CFR § 74.21(b)(1) and (2); 42 CFR § 51c.112(a)).

We maintain that our finding on salary expenditures claimed against the section 330 grant is
valid. We have found this issue at a number of other HRSA grantees and are applying the same
standards for all of our audits of HRSA grantees.




                                                 11
Expenditures for the Increased Demand for Services Grant

Soundview Comments

Soundview restated its assertion that it was never made aware of the requirements to have after-
the-fact certifications for employees working on Federal grants. Soundview also contended that
the allocation of $21,638 for printing and publications, postage, and transportation was allocated
to the IDS grant in accordance with 2 CFR part 230 and that HRSA was aware of this allocation
methodology.

Office of Inspector General Response

Soundview did not dispute the criteria cited in our report or our findings concerning after-the-
fact certifications for employees working on the IDS grant. Regarding its statement that costs for
printing and publications, postage, and transportation were allocated to the IDS grant in
accordance with 2 CFR part 230, Soundview provided no documentation in its response to
demonstrate that its allocation methodology and allocation base were consistent with Federal
requirements. Further, Soundview did not provide documentation in its response to show that
the costs were incurred specifically for the award, benefited both the Federal award and other
work, or were necessary to the overall operation of the organization. Therefore, we maintain that
our findings related to the IDS grant are valid.

Expenditures for the Capital Improvement Program Grant

Soundview Comments

Soundview stated that it has entered into a repayment plan with HRSA for the funds questioned
in our audit report and that this amount should not be part of our findings because it has already
been addressed. Soundview also contended that it has not received any notification from HRSA
on the status of remaining CIP funds that it was awarded but not yet paid. Soundview stated that
its communications with HRSA regarding these funds were not addressed in our report and that
it objected to “the impartial representation of the findings related to this CIP grant.”

Office of Inspector General Response

Soundview did not dispute the criteria that we cited in our report or our findings concerning CIP
grant expenditures. Although Soundview has entered into a repayment plan with HRSA for the
total CIP grant funds it drew down ($102,460), we found that Soundview did not improperly
claim the full amount that it agreed to repay. Specifically, we found that Soundview improperly
claimed $91,965 of the $102,460 it agreed to repay HRSA. Soundview has repaid $15,009 of the
$91,965 amount; therefore, $76,956 remains due the Federal Government. We recommended
that HRSA recover only $76,956—the balance owed to the Federal Government for the
unallowable portion claimed, not the balance of the $102,460 that Soundview agreed to repay.
Therefore, we maintain that our finding that Soundview claimed unallowable CIP grant
expenditures is valid.




                                                12
We disagree with Soundview’s statement that our report should have addressed a lack of
communication with HRSA about the status of the remaining CIP funds. Our report did not
discuss the remaining CIP funds because we did not audit these funds and because the funds
were not expended or claimed by Soundview.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA generally agreed with our findings and
recommendations. 11 HRSA agreed with our recommendation to ensure that Soundview refund
$98,594 and will work with the Program Support Center on appropriate debt collection actions.
Regarding the finding and recommendation that $5,211,598 either be refunded or that HRSA
work with Soundview to determine what, if any, of these costs were allowable, HRSA concurred
that we had applied the appropriate Federal cost principles and administrative requirements.
HRSA did not commit to a course of action regarding these funds. It did state that it would issue
clarifying guidance to section 330 grantees to affirm these Federal requirements and to notify the
grantees that they must separately account for Federal and non-Federal grant budgets and
expenditures. HRSA also stated that it did not plan to take action on our remaining
recommendations because (1) Soundview’s section 330 grant expired in January 2012, and a new
organization was awarded a section 330 grant to serve Soundview’s area/population and (2)
other Soundview funding awards were placed on restricted drawdown, requiring approval by
grants management officials prior to disbursement.

After reviewing HRSA’s comments, we maintain that our findings and recommendations are
valid. We continue to recommend that HRSA either require Soundview to refund the $5,211,598
in section 330 and IDS grant funds or work with Soundview to determine whether any of the
costs claimed against these grant were allowable. In addition, although Soundview’s section 330
grant has expired and been fully drawn down, its IDS and CIP grants are still active. Therefore,
HRSA should still address shortcomings in Soundview’s financial performance measures and
ensure that Soundview develops policies and procedures for determining the reasonableness,
allocability, and allowability of expenditures until these grants have been closed.

HRSA’s comments are included in their entirety as Appendix B (May 3, 2012) and Appendix C
(August 9, 2012).




11
  Subsequent to our receipt of HRSA’s initial comments dated May 3, 2012, we revised our recommendations to
provide HRSA flexibility in addressing the allowability of costs claimed for salaries and fringe benefits for
Soundview’s section 330 and IDS grants. At HRSA’s request, on June 4, 2012, we provided the agency with a
revised draft report that included our revised recommendations, as well as Soundview’s comments and OIG’s
response. HRSA submitted additional comments on August 9, 2012.


                                                      13
APPENDIXES
                                                                                                               Page 1 of6

    APPENDIX A: SOUNDVIEW HEAL TH CARE NETWORK COMMENTS



                                Soundview HealthCare Network



         May2,2012

         Department r:i H"alth & HLm an Services
         Office of Inspector General
         Office of Au d t Services
         Region II
         Jacob Javits FelFral BLJ lding
         26 Federal Plalc - Room 3900
         New York, NY 10278

         Re: Your Rep Cl1 Numb er A-02-11-02004

         Dear Sirs,

         W e have revi ewed yru r draft report referenced above and make the f d lowing
         comments and mservations

         W e will mention at the onset, we disagree total~ with most if not all of your
         statem ents and \'Our recom m endations as sited in your re~ crt Specifically when
         it is stated; "S ru ndvi ew claim ed Federal grant expenditures totaling $5,31 0,1 92
         that were unallo¥!able " and thit "S oumview claim ed these unallow atl e costs
         because of defic ie ncies in its intern al controls ",

         Srundview is located in w mt w as an lIl derserved and               eC Cll omical~   depressed
         rnm m I mily    ~nrl 11~nk,   in   r~tt   In Ihp FPrl pr~1 D",nl S nl mriv.,w rprprvprl, Ihn,p
         funds helped Soundview p:ovi IF for the dem am and nece;s JY healthcare
         needs of the commu ri ty it serves and for many patients that would othe rw ise not
         been able to affrrd the quality health care Soundview provides The majority of
         the patients Soundvi ew serve com e from the com mlIlity it is loc ite d in Because
         Sru ndvi ew continues to fill the healthcare need r:i the com 11 unity and has done
         so for more than 30 years, it has addressed the health dis~arities evidenced in
         the system of care and services forthis severely challenged and underserved
         community Ho\O:ever, the community and many of t~ Soundview patients still
         suffer from depressed econom ic conditions and still require the help of the
         Federal grant to lelp Soundview provide gJ od quality ~alth cae The pll"pose
         of the      was to assist So lIl dvi ew i            health cae frr the indigent
                   tmt                                          Bronx rea~h cae system has
                                                                    Office of Medicaid
         Inspector
         communicated to                                            I I and Hf\~A ittillated
         officials


   ' " 0 "'J"Cior   '"   0010                                                                             ro   r " l'I'Hti""
infonmfu n
                                                                                          Page 2 of 6




                   Soundview HealthCare Network




SOUNPV1 EW 'S '\ ESPONSE TO OIG' S FIN pINGS

Davs of ExoensE Covered bv Cash HR SA's benchmalt; is 60 to 70 days r:1
operiting cash 01 hand OIG's finding - 2 days in 2008, 1 jay in 2009 and less
than one day in 2010        In the 33+ years of op erations, Soundview's audited
financials have r-.,ver demonstrited a deficit The major reason our scoring in
this category is ~ Iow the benchmark revowed arru nd the :imeliness r:1 Medicaid
payments In fact Medicaid owed Soundview for 2007 thrrugh 2009 $468,539
and from 201 0 approxim ate~ $275,W7 V<I hich Soundview did not start receWi rl]
until May 2011 ,/,.,s of the date of this letter Soundview is still due over$2 00 ,000
for 201 0 These extraordinary overdue amou rts r:1 funds ~Iay a sig ri ficant role in
establishi rl] the financial performance measure; and taking the cash balance of
one day out of 365 can be misleading

Current ard Cas1 Ratios - HRSA recommends a cUlTent ration greater than 1 ,5
OIG'sfimj ng 1,3 in 2008, 1,2 in 2009 and 9 in 2010 "A current ratio of 1
suggests an orgJlilation is unable to payoff its obligations" Mhough
Sru ndvi ew does1't meet the H RSA reeo m m erdations, acc CO'" ding to the definition
of current ratio, Soundview is able to payoff its obligations in 2 of the 3 years
mea sured, It's flYeseeable that when accounts rec ervable are delayed as in the
case of Medicaid owing Soundview upwards of $744,000 Jld not paying most of
that amo lllt until2011 that would have a negative impact on the current as w ell
as the cash ratiol measure Again ttl s measure is t* en fo r one day out of 365
which can be misleading

W olt;jna Capital - H RSA recom me rd s a PJs itrve wolt;ing capital greater than 2
month s of experditures OIG's finding - For 2008 Soundview had approximate~
one month 01 w oi(i ng cu p t"l, l or 2000 "pproxim "te~ 75% 01 one month's
expense and lor 20 10 it le ll to less tha n one month ex penses by $276 ,000
Srundvi ew incur'e d urgent~ needed capital repa i r expenses over the years that
affected this measure Funds that Soundview should have received ard were
covered by a Federal HRSA CI P grant, as we ll as New York State Heal61unds
were awarded to Soundview but were never paid To date SourdYiew has not
officially been nctified r:1 the status of these two awarded (Ta nts des ~ te
numerous Irq LJ n"s

Accounts Recervable Collec~ons - Acc CO'"d ing to HRSA 's b"nchmalt; gLi d31ce,
recipients should coil ect their accounts receivabl e balanc e i n 65 days CO'" less to
maintain a healthy cash fiow OIG's linding - 2008 averag e days to collect was
126, lo r 2009 it ",: as 111 days, and lo r 201 0 is was 99 day, SO lll dview's trend
                                        POII . lo!'
                                                                                        Page 3 of6




                   Soundview HealthCare Network



reflect pr()]ressil'e im provem ent from ye ar to year and we 'eite rate that the
Medicaid funds still owed to Soundview f or the periods 2007 to 2010 totaling an
estim ated $744 ,00 0 s ignificant/y im pact our financial situatllrl. S oundview has
no control oft h s govemment agency and are at the mercy of their lF cisions
Had payments been paid to Soundview when due Soundview would have fared
better than w hat it di d ac cordi rl] to 01 G 01ller contributing factors revolve
arou rd steti' resource s and shortages 3ld limitations with our billing system

                      "HRSA reccmmends that grantees maintain a positwe
     I               failure to break even indicates that an organization may not be
able to perform its core functions" OIG's findings - ·Soundviews annual net
earnings declined by$653,500 from 2008 through 2010 For 2008 and 2009
Sou ndvi ew had ~t profits of $382 ,81 0 and $6 ,851 respective~. For 201 0
Soundview recorded a net loss of$270,770 " Soundview's net profits as a result
01 Independert aldlts pertormed on ~oundvlew Iinancialitcords resulted In a
$458,835 net prefit in 2008, $506,851 in 2009 and $41 ,831 in 2010 These
amounts we re subs eque rtly changed bytre OIG ald it resulting in a ccmbined
net profit for the 3 year in question of$118,891 It isn't unusual for organization
to experience a deficit year. In Soundview's h story 3ld according to the OIG
audit results this wo uld be the one and oil y year in it 33 yea histc.'Y w here a
deficit w as recorded Ac cordi fl] to the 01 G audit Net Asse:slR etained earnings
would be $1 ,467,965 It should also be noted that Soundvie w was awarded CIP
and Hea l 6 grant> throughout this period of ti me that w as ~ver recorded as
income by SOllldview and to date has never been p3 d or responded to ilter
numerous irq Li ri"s by Soundview to both HRSA and NYS Trese amounts
could potential~ be in the millions

Unallo wable EXRendlures CI3 med for Federal R eim !:oJ rsem ent
HRSAlFc deml Requirements For s"lmy "nd Welges to be "lIowed lor Feder,,1
reim burs em ent, grantees must mai ntai n an after the lact certilication of the actual
actwity lor each em ployee working on Federal awards Th" certilication must be
signed by the errployee or a supervisory official having lirsthand knowled ge of
the employee's atWity, be prepared at least monthly, coincide with one or me.'"e
pay periods, and account lor the total actwity r:J the emp loyee - OIG findings­
Soundview did mt adequate~ document expense Specifical~ Soundview did
not maintain afte'-the-Iact certi l ications 01 actual actwity I e.'" employees who
worked on the grant In addition Soundvie w did not esta W,h a separate acc ou nt
lor its section 330 gra rt expenditures an d com ingled the se lunds with other
operitional fu rd s We cou ld not verify that section 330 grcnt lu nds were used lor
allowabl e ex penditures
                                                                                                                             Page4of6




                                   Soundview HealthCare Network



          This is the first time ever th it Soundview has been advisec of this requirement in
          its 33+ yeif"S of operation It has never been mentioned in any previous audit
          perform ed by thE independent alditors, H RSA 's offici als and auditing agencies
          W e have routinef,i over the past 33+ years submitted our [Tant applications, our
          audited financial statem ents and have never been advis ed of said requirem ents
          In addition, it shculd be noted thatHRSA did not req Li re lire item reporting of
          Section 33] funds until ;\pril 201 0, as noted in tr., N GA issued at that ti me The
          findings here suggest otherwi se with the request for repayrn ent of grant monies
          back to 2008 due to w verifi ilJl e allowab Ie expenditures

           There are norms and there are practices, is it a standard practice for all sec~on
           330 grantees to perform after-the-fact certific 3:i ons? If there is, this was never
           addressed in any of our H RSA site visits, including one wh ch a H RSA financial
           c o n s u l t a n t _ performed during her financial st e visit assessment
           ~~ w as c~al ~ w ith revlelVlng ourtlna rc lal records N or w as It
           ever addressed by_              o r _ , the HRSA Project Officer and
           Grants Man3]erne~t w ~ with proviJ ing us with Section
           330 project sup p:rt and technical assistance We have been a section 330
           grantee for over 33 year and this never came up

          Is this practice adhered to by all FOHC's ard are the same standards being
          applied to the 1100+ Secu m 330 grantees? We have asked several FOHC's
          and they have never heard of any after-the-fact certifications of employees
          Said requiremen: should be uniformly and uniliterally ap jl ied to all FOHC's, yet
          we do not find thOlt other health centers have heard of or have been cited for
          sim il if" findings The purPJ s e of the secti on 330 funds was to s 4l Port indigent
          care From 2008 to 2010 Soundview accumulated bad debt expense in excess
          of $3 ,500 ,00 0 The econom ics of the population Soundvie'!I serve reflects a
          lurge indigent puti ent base The entire sectian 330 funds ,"ere used to ""ist
          Srundview in serving this population . In fact, the Section 330 funds represent
          on~ a small portiJ n of total Soundview funds ~eded to provide care to this
          large~ underserve d comm unity If this is not w derstood by any audit it would
          have to be said tle audit was incomplete If the demogra p'l ics of the population
          we serve and the financial statisti cs of com m uri ty health centers, s pecifical~ in
          large urban area;, are m t cl ear1y u rderstood or taken into consideriti on it is
          understa rd able how o~ can mistake ri y conclude section 330 funds were not
          used to provide ildigent care

           Exoerdill.(es for the Increas ed p em ard (I P S) for Services Grant - 01 G' s finding
           state S ru ndvi ew failed to docum ent $156 ,265 in salary and fringe benefit cost
           charged to thi s gan! Specifically, S oundvi ew did not m ain:ain after-tr.,-fact
                                                             P'II . 4of6
ctr"", u[],"!-""L" 0.,,",«1   w~   n~ "'~L.u   L",L b.. u..n,,,,,",l.u",,,,,_ it ,un""'~ I-"',,-,..n y u,nlill<ll, "'UN,   un~,   "",.. live
inl'lnmoon
                                                                                                                      Page 5 of6




                                Soundview HealthCare Network



         certifications of ,dual activity for employees who worked m the grant In
         addition Srundview failed to adequitely document or ade ~ ate~ allocate
         $21,638 f[(" prinfu g and publications, postage, and trans p:: rtation charged to the
         grant SoundYie"l has had more ltl31 its share of site ,;sits from HRSA staff
         examining the cl tl ical side as well as ltle fin31cial records and this "after-ltle-fact"
         certification dOClr nentation was never introduced [(" mentioned during 31y of
         these site visits In the 33 plus yeas SoundYiew has been recerving the section
         330 grants this has never been broug rt up. In fact Sounct,iew has been under
         "dra w-dow n restricti ons " si IX e May- 20 10, where it was mandatory to provide
         docum entation sJecified by HR SA for their review and" prior approval
         authorization " in [("der to draw down          section 330 funds Even during this
                                      "Y




                                               I   I   I      I                             additi m .
                           '~'~:~';;:d~'~:~;~:
                           H
                                                an email      November 19, 20Tl'lTo.
                                    describes the methodology ubllz ed for the lOS budg3i


         Experdi ttres forthe Capital Improvement Program (CIPl Grant - Soundview has
         entered into a repayment plan with HRSA and has started Jaying back the
         $102,460 which Sru rdview drew-oow n, plus interest This ShOlJd not be part of
         the findings as it is bei ng addressed alre ady. FLrttl erm ore S oundYiew
         em phathical~ stresses that it has not recerved any notificati m from HR SA as to
         the stutus 01 its cwurded CIP grunt, uS evi de nced by this ctull report. We were
         awarded funds that never cam e; HR SA has repeated~ in its docum ented
         communications, has told us our gr31t and the change of scope (CIS) request is
         still 'under revie'¥l", 15 months past the date we asked for the CIS and way past
         the gra rt aw arded period Th s was not addressed in the craft rep crt and
         S rundYi ew take, objection to the im parti al representation of the findings related
         to this CIP gra rt


         S rundYi ew had been recerving Section 330 funding since I 978 and over the past
         3 decades, serviced over 20 ,000 users generating over 100 ,000 visits am uall y in
         Bronx County, New Yor};        This community is in a designated medic 3 ~
         undersetved area, a designated health professional shortage area and is
                                                           P' II . ~of6

£li" ci'In'p,eb 0.,.".0>1 nolo n., clololod ht h." "',n,.a..,todb.c,,,,, it oo>t "in'l"'ooo,WIyXiontUmlo .,.,l<O,· oU"'·''''''tn-.
rfonmli m
                                                                                      Page 6 of 6




                      Soundview HealthCare Network



consid ered the lnhealthiest county of all 62 counties in ~ew Ycru State (based
upon a report issued in a 2010 study' con ctl cted by the Uri versity of Wisconsin
P~ulation Health Insti tLtej   SoundYiew relied on SectiJ n 330 funds to help
support its misslln to provide high qJ ality and social services to all indi,;duals
whether or not they have health ins LTance or the ability to pay for the full cost of
care

The issue here revowes around a ma rdate to ta ke back over $6.5M in said funds
over 2008-201 0, which SoundYiew directed 100% towards the c 3"e of its indigent
and underserved patients This decision to take back Section 330 funds, which it
had maintained 'or over 33 yea rs, is in effect, co rtributes majorly to closillJ an
important safety net health care provider for awroximate~ 20,000 low income
residents of Bronx County This decision lllilaterally devostates the patients we
have serviced fO-lFcalFs and who fa ithfully come to this health center because
it is their medical home; to its providers who tre at Ire many chronic and
debilitating comUions they have; to the 100+ staff members who wor\( at the
center, marry of whom de c1 cated over 15+ years r:i service to this community and
the health center

SoondYiew deserves to be treated fairty and with eqJ ali ty; juctled upm its own
merits and not by association with negative publicity surroo nding political
disagreemert s CO'" pcj emics It is simp~ not fa ir thit a health care facility serving
so many tmusa lds of families in the SoundYiew community should be told to
repay funds it has sole~ used to service th s indigent popllation, a move that will
force SoundYiew's closure due to politics and actions takel without due proc ess
It is vital to recog ri ze that there has to be a concerted effort by all parties
invowed to create a just, democritic and economicalf,' equita lj e basis for
carrying out its decisions and actions in light of ltle impact this has on the lives
~nd he~lth r:i patient< and <t~ff alike    SDundYiew reiter",,,,, that we are abDut
preserving quality health C3"e for this community; it sho LJ d not be about the
politics of destruction of im portant com munity fac ilities

We respectfully acknowledge our objection to the draft report and its alleged
findings

Respectfully,

SoondYiew Health Care Network Management


, c""~ Hut,"   Fa".,·"", M06ilizi"~ k   _   [ """,. cm.,.,,..t> Hut,"
                                                 P'II . 6of6
                                                                                                          Page 1 of 4
                  APPENDIX B: HEALTH RESOURCES AND SERVICES 

                  ADMINISTRATION COMMENTS DATED MAY 3, 2012 



(/"~          DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                              Health Resources and Services
                                                                                    Administration
~,.-:::ll'-
                                                                                    Rockville. MD 20857

                                             MAY - 3 ?012




              TO: 	         lnspector General

              FROM: 	       Adrnjnistrator

              SUBJECT: 	    OIG Draft Report: "Soundview Health Care Network Did Not Meet Select
                            Financial Performance Measures and Claimed Unallowable Federal Grant
                            Expenditures" (A-02-II-02004)

              Attached is the Health Resources and Services Administration's (HRSA) response to
              the OIG's draft report, "Soundview Health Care Network Did Not Meet Select Financial
              Performance Measures and Claimed Unallowable Federal Grant Expenditures"

                                                                                      L
              (A-02-11-02004). If you have any questions, please contact Sandy Seaton in HRSA's
              Office of Federal Assistance Management at ~:/W7~



                                                         Mary K. Wakefield, Ph.D., R.N.

              Attachment
                                                                                           Page 2 of 4




   Health Resources and Services Administration's Comments on the OIG Draft
    Report - "Soundview Health Care Network Did Not Meet Select Financial
  Performance Measures and Claimed Unallowable Federal Grant Expenditures"
                                   (A-02-II-02004)


The Health Resources and Services Administration (HRSA) appreciates the opportunity
to respond to the above subject report.

OIG Finding:

PERFORMANCE RELATIVE TO FINANCIAL PERFORMANCE MEASURES

HRSA Response:

HRSA reviews annual audited financial statements submitted as part of the OMB A-133
audit requirement to monitor trends in financial stability and to identify technical
assistance needs. A grant condition regarding non-compliance with Financial
Management and Control Policies was placed on Soundview Health Care Network's
(Soundview) Notice of Award in fiscal year (FY) 2011, and Soundview's Section 330
grant expired at the end of the FY 2011 grant period on January 31,2012.

DIG Finding:

UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT

HRSA Response:

HRSA will review the OIG findings regarding cost disallowances consistent with
departmental grants policy and Health Center Program authorizing statute. HRSA will
work with the Program Support Center (PSC) on appropriate debt collection actions.

OIG Recommendation:

lmpose special award conditions to address shortcomings in Soundview's financia l
perfonnance measures, including days of expenses covered by cash, current and cash
ratios, working capital, accounts receivable collections, and revenue deficiency.

HRSA Response:

Soundview's Section 330 grant expired on January 3 1, 2012, and a new organization was
awarded a grant to serve thjs area/population in the FY 2012 Service Area Competition.
Other Soundview funding awards have been placed on restricted drawdown requiring
approval by grants management officials prior to disbursement. Therefore, no action will
be taken on this recommendation unless restrictions already placed on funds awarded to
Soundview were to be removed.
                                                                                                                  Page 3 of 4




             OIG Recommendation:

             Ensure that Sound view refunds $5,310, 192 to the Federal Government ($5,055 ,333
             related to the section 330 grant, SI77, 903 related to the IDS grant, and 576,956 related to
             the CIP grant).

             HRSA Response:

             HRSA will review the OIG findings regarding cost disallowances consistent with
             departmental grants policy and Health Center Program authorizing statute. HRSA will
             work with PSC on appropriate debt collection actions. Based on prior findings of
             unallowable costs related to the American Recovery and Reinvestment Act of2009,
             Capital lrnprovement Program (ClP) grant, the grantee signed a Repayment Agreement
             on November 28, 2011. Under the agreement~ a total of$87,451.35 was to be repaid in
             monthly payments of$4, 142.71 which were to begin on December 1,2011 . As of
        t	   March 12, 2012, PSC has collected three payments for a total of512,428.13 under
             Soundview' s established Payment Plan.

             DIG Recommendation:

             Impose special award conditions to ensure that Soundview's financial system provides
             accurate, current, and complete disclosure of financial results, identifies the source and
             application of funds for l-lliS·sponsored activities, and accounts for section 330 grant
             funds separately from all other funds.

             HRSA Response:

             Soundview' s Section 330 grant expired on January 31, 2012, and a new organization was
             awarded a Section 330 grant to selVe this area/population in the FY 2012 Service Area
             Competition. Other Soundview funding awards have been placed on restricted
             drawdown requiring approval by grants management officials prior to disbursement.
             Therefore, no action will be taken on this recommendation unless restrictions already
             placed on funds awarded to Soundview were to be removed.

             OIG Recommendation:

             Ensure that Soundview develops policies and procedures for determining the
             reasonableness, allocability, and allowability of expenditures.

             HRSA Response:

             Soundview's Section 330 grant expired on January 31, 2012, and a new organization was
             awarded a Section 330 grant to serve this area/population in the FY 20 12 Service Area
             Competition. Other Soundview funding awards have been placed on restricted
             drawdown requiring approvaJ by grants management officials prior to disbursement.



t   Office of Inspector General note: The $12,428.13 identified by HRSA represents payments made by Soundview on our
recommended disa1lO\Vances. These payments were received after our fielchvork was completed.
                                                                                            Page 4 of 4




Therefore, no action will be taken on this recommendation unless restrictions already
placed on funds awarded to Soundview were to be removed.

OIG Recommendation:

Educate Soundview officials on Federal requirements for after-the-fact certifications and
the proper period to charge costs.

HRSA Response:

Soundview's Section 330 grant expired on January 31 , 2012, and a new organization was
awarded a Section 330 grant to serve this area/popUlation in the FY 2012 Service Area
Competition. No action will be taken on this recommendation unless restrictions already
placed on funds awarded to Sound view were to be removed.
                                                                                             Page 10f2
  APPENDIX C: HEALTH RESOURCES AND SERVICES
 ADMINISTRATION COMMENTS DATED AUGUST 9,2012


DEPARTMENT OF HEALTH to. HUMAN SERVICES                                Health Resources and Services
                                                                       Administration


                                                                       Rockville MD 20857


                                     Ai'~   9 1012



TO: 	         Inspector General

FROM: 	       Administrator

SUBJECT: 	    DIG Draft Report : "Soundview Health Care Network Did Not Meet Select
              Financial Performance Measures and Claimed Unallowable Federal Grant
              Expenditures" (A-02-11-02004)

Attached is the Health It"esources and Services Administration's (HRSA) comments on
OIG ' s June 4, 2012, revised draft report, "Soundvicw Health Care Network Did Not
Meet Select Financial Performance Measures and Claimed Unallowable Federal Grant
Expenditures" (A-02- I I-02004). If you have any questions, please contact Sandy Seaton
in HRSA's Office of Federal Assistance Management at (301) 443 -2432.


                                            /k~ad?~
                                            Mary K. Wakefield, Ph.D., R.N.

Attachment
                                                                                                    Page 2 of 2




  Health Resources and Services Administration's Comments on the OIG Draft Report ­
 "Soundview Health Care Network Did Not Meet Select Financial Performance Measures
         and Claimed Unallowable Federal Grant Expenditures" (A-02-11-02004)


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the OIG's revised June 4, 2012, draft report. This is a supplement to HRSA's
previous comments of May 3, 2012, in response to the original draft report. HRSA appreciates the
OIG's scrutiny of whether Soundview Health Care Network (Soundview) met select HRSA
financial performance measures and whether its federal grant expenditures constituted allowable
grant costs. Moreover, HRSA appreciates the OIG's significant contributions to strengthening
grantee performance and enhancing program integrity through this and other audits in support of
HRSA federal grant programs. OIG 's work and useful feedback has provided invaluable
information to support the continued development ofHRSA ' s section 330 grant program, as well
as other HRSA grant programs. Accordingly, HRSA is using the information and insights
provided by the OIG's draft report as more fully discussed below.

The OIG noted, relative to its findings on unallowable expenditures claimed for federal
reimbursement, that Sound view did not dispute the criteria cited in the OIG ' s report or its
findings, but questioned OIG's conclusions on other grounds. HRSA concurs with OIG's
comments regarding the applicability of federal cost principles and administrative procurement
requirements to federal grant funds. In addition, HRSA will issue clarifying policy guidance to
affirm this understanding; inform section 330 grantees that they must separately account for
federal and non-federal grant budgets and expenditures (and have these records available to
auditors); and instruct grantees that when they wish to use non-grant funds for purposes that are
not allowable under cost principles or are not consistent with procurement requirements under 45
CFR Part 74 pursuant to section 330(e)(S)(D), they must demonstrate to HRSA that any non­
grant expenditures are not prohibited under section 330 of the PHS Act and further the objectives
of the project or program.

The OIG also recommended that HRSA ensure that Sound view refunds federal grant dollars
related to the Increased Demand for Services (IDS) and Capital Improvement Program (CIP)
grants to the federal government (as noted on page 9 of the report, bullet #2). HRSA concurs
with OIG's comments on the IDS and CIP grants and has begun to work with Soundview to
determine the amount of unallowable costs related to the IDS and CIP grants and will work with
the Program Support Center on appropriate debt collection actions.

HRSA also notes the OIG's statement on page 12 of the draft report, that it plans to apply the
same standards for all audits ofHRSA section 330 grantees. HRSA therefore understands that
the OIG recommendation as to the options available to HRSA in addressing
allowability/disallowance of costs (as noted on page 9 of the report, bullet #3) also will be
similarly applied in those situations.

In conclusion, HRSA thanks OIG for its work in this important area and for the opportunity to
respond to its draft report.
